                     OFFICE OF
             THE INSPECTOR GENERAL
                   U.S. NUCLEAR
             REGULATORY COMMISSION


                    System Evaluation of Security Controls
                          for Standalone Personal
                          Computers and Laptops


                     OIG-05-A-18      September 22, 2005




              EVALUATION REPORT




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                         September 22, 2005




MEMORANDUM TO:             Luis A. Reyes
                           Executive Director for Operations



FROM:                      Stephen D. Dingbaum/RA/
                           Assistant Inspector General for Audits


SUBJECT:                   SYSTEM EVALUATION OF SECURITY CONTROLS
                           FOR STANDALONE PERSONAL COMPUTERS AND
                           LAPTOPS (OIG-05-A-18)


Attached please find the Office of the Inspector General’s report System
Evaluation of Security Controls for Standalone Personal Computers and Laptops.
Richard S. Carson and Associates, Inc., conducted this evaluation on our behalf
and determined that:

   ¾ Security controls for standalone PCs and laptops are not adequate.
   ¾ Standalone PCs and laptops are not monitored for compliance with
     Federal regulations.
   ¾ IT coordinators have inconsistent understanding of disposal practices for
     standalone PCs and laptops.

The weaknesses identified are not significant deficiencies or reportable
conditions. During an exit conference on August 25, 2005, NRC officials
provided comments concerning the draft audit report, which were incorporated
into the report as appropriate. After reviewing the modifications, the agency
opted not to submit formal written comments to this report.

If you have any questions or wish to discuss this report, please call me at
415-5915 or Beth Serepca at 415-5911.

Attachment: As stated
Distribution

John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
G. Paul Bollwerk, III, Chief Administrative Judge, Atomic Safety andT
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
William N. Outlaw, Director of Communications
William N. Outlaw, Acting Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
William F. Kane, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research,
 State and Compliance Programs, OEDO
Jacqueline E. Silber, Deputy Executive Director for Information Services
 and Administration, and Chief Information Officer, OEDO
William M. Dean, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Michael R. Johnson, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Carl J. Paperiello, Director, Office of Nuclear Regulatory Research
Paul H. Lohaus, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
                        Office of the Inspector General
                      Evaluation of Security Controls for
                 Standalone Personal Computers and Laptops




                             Contract Number: GS-00F-0001N
                           Delivery Order Number: DR-36-03-346

                                                 September 21, 2005




The views, opinions, and findings contained in this report are those of the authors and should not be construed as an official Nuclear Regulatory
                       Commission position, policy, or decision, unless so designated by other official documentation.
[Page intentionally left blank]
                                                                       Security Controls for Standalone PCs and Laptops



EXECUTIVE SUMMARY


BACKGROUND

         On December 17, 2002, the President signed the E-Government Act of 2002, which
         included the Federal Information Security Management Act (FISMA) of 2002. FISMA
         outlines the information security management requirements for agencies, which include
         (1) an independent evaluation of an agency’s information security program and practices
         and (2) an evaluation of the effectiveness of information security control techniques.
         FISMA also requires an assessment of compliance with requirements and related
         information security policies, procedures, standards, and guidelines.

         As part of the FY 2005 FISMA independent evaluation of the Nuclear Regulatory
         Commission’s (NRC) automated information security program, Richard S. Carson and
         Associates, Inc. (Carson Associates), reviewed security controls for standalone personal
         computers (PCs) and laptops.

         PCs and laptops used at NRC are either (1) connected to the NRC local area network
         (LAN) or (2) used as standalone1 systems. Some of the standalone PCs and laptops are
         used to process safeguards2 and/or classified3 information. These are considered “listed
         systems.”4 PCs and laptops connected to the NRC LAN are protected by the LAN’s
         security controls. The evaluation of security controls for listed systems was reported in
         OIG-05-A-14, “Office of the Inspector General System Evaluation of Listed Systems
         That Process Safeguards and/or Classified Information,” dated August 4, 2005.

         There are approximately 4,100 PCs and laptops connected to the NRC LAN, and there
         are approximately 117 standalone PCs and laptops that are used to process safeguards
         and/or classified information. However, the number of standalone PCs and laptops that
         do not process safeguards and/or classified information is unknown, as these standalone
         PCs and laptops are not tracked in a central location. Findings in this report pertain
         primarily, but not exclusively, to NRC’s standalone PCs and laptops that are not used to
         process safeguards and/or classified information.


1
  For the purposes of this evaluation, standalone refers to a PC or laptop that is not configured for connectivity to the
  NRC LAN. Standalone PCs or laptops that are not used to process safeguards and/or classified information may
  be connected to the Internet, for example when an employee is on travel.
2
  Safeguards information is sensitive unclassified information that specifically identifies the (1) detailed security
  measures of a licensee or an applicant for the physical protection of special nuclear material or (2) security
  measures for the physical protection and location of certain plant equipment vital to the safety of production or
  utilization facilities. Protection of this information is required pursuant to Section 147 of the Atomic Energy Act
  of 1954, as amended.
3
  Classified information is information (such as a document or correspondence) that is designated National Security
  Information, Restricted Data, or Formerly Restricted Data.
4
  Listed systems represent one of four categories used by NRC to group the agency’s systems on its master inventory
  of systems. A listed system is a computerized information system or application that (1) processes sensitive
  information requiring additional security protections and (2) may be important to an NRC office’s or region’s
  operations, but which is not a major application when viewed from an agency perspective.


                                                            i
                                                        Security Controls for Standalone PCs and Laptops



PURPOSE

      The objective of this review was to evaluate the effectiveness of NRC security policies,
      procedures, practices, and controls for standalone PCs and laptops.

RESULTS IN BRIEF

      Carson Associates evaluated the security policies, procedures, practices, and controls for
      standalone PCs and laptops and found that:

          •   Security controls for standalone PCs and laptops that are not used to process
              safeguards and/or classified information are not adequate.
          •   Standalone PCs and laptops that are not used to process safeguards and/or
              classified information are not monitored for compliance with Executive Order
              13103, Computer Software Piracy.
          •   IT coordinators’ understanding of disposal practices for standalone PCs and
              laptops that are used to process safeguards and/or classified information is
              inconsistent.

      Security Controls For Standalone PCs and Laptops Are Not Adequate

      Security controls for PCs and laptops are typically provided by the network to which they
      are connected. However, some NRC PCs and laptops are not connected to the NRC LAN
      and, subsequently, fail to benefit from security controls provided by the LAN. Carson
      Associates found that security controls for standalone PCs and laptops that are not used to
      process safeguards and/or classified information are not adequate. For example, updates
      to virus definitions and operating system software are not always performed. Security
      controls for standalone PCs and laptops that are not used to process safeguards and/or
      classified information are not adequate because users are not given sufficient guidance on
      implementing security controls and the agency lacks a mechanism for assigning users
      responsibility for implementing security controls on these PCs and laptops. In addition,
      the agency lacks procedures for verifying that all required security controls are being
      implemented on standalone PCs and laptops that are not used to process safeguards
      and/or classified information. Inadequate security controls, such as the lack of updated
      virus definitions and operating system updates, could result in the inadvertent release of
      sensitive NRC information when a standalone PC or laptop that is not used to process
      safeguards and/or classified information is connected to the Internet.

      Standalone PCs and Laptops Are Not Monitored for Compliance with Executive
      Order 13103

      Executive Order 13103, Computer Software Piracy, requires all executive agencies to
      ensure compliance with applicable copyright laws. The agency monitors for compliance
      PCs and laptops that are connected to the NRC network and has procedures in place to
      monitor standalone PCs and laptops that are used to process safeguards and/or classified


                                               ii
                                                                   Security Controls for Standalone PCs and Laptops



        information. However, the agency does not have any procedures for monitoring
        compliance of standalone PCs and laptops that are not used to process safeguards and/or
        classified information and are not covered by the Infrastructure Services and Support
        Contract (ISSC).5 As a result, the agency does not know its degree of compliance with
        software licenses for all standalone PCs and laptops, which makes NRC, its employees,
        and its contractors vulnerable to the consequences of unauthorized software use. Such
        consequences could include fines and even imprisonment.

        IT Coordinators’ Understanding of Disposal Practices for Standalone PCs and
        Laptops Is Inconsistent

        Management Directive (MD) and Handbook 2.6, Information Technology Infrastructure,
        describe the procedures for equipment removal requests. These procedures apply only to
        information technology (IT) equipment that is not used to process safeguards and/or
        classified information. The National Security Agency (NSA) has developed policies and
        guidance for the proper disposal of IT equipment used to process classified information.
        MD and Handbook 12.2, NRC Classified Information Security Program, and MD and
        Handbook 12.6, NRC Sensitive Unclassified Security Program, describe procedures for
        handling classified and safeguards6 information. MD and Handbook 12.5, NRC
        Automated Information Security Program, also describe procedures for processing
        safeguards and classified information. Carson Associates found that the disposal
        procedures described by the IT coordinators for standalone PCs and laptops that are used
        to process safeguards and/or classified information were inconsistent and not always in
        accordance with policy and guidance from NSA and NRC. Disposal practices described
        by the IT coordinators for standalone PCs and laptops that are used to process safeguards
        and/or classified information are inconsistent because the NRC MD and Handbooks that
        compose Volume 12, Security, do not clearly describe the disposal process and who is
        responsible for administration of the disposal process. Without clearly defined
        procedures for the disposal of standalone PCs and laptops that are used to process
        safeguards and/or classified information, the agency may not be in compliance with
        policy and guidance from NSA.

RECOMMENDATIONS

        This report makes recommendations to the Executive Director for Operations to improve
        the security controls for standalone PCs and laptops. A consolidated list of
        recommendations appears on page 11 of this report.




5
  The ISSC provides NRC with a variety of infrastructure services and support, including seat management. The
  term seat management is typically used to describe an information technology outsourcing approach for acquiring
  services from a single source in support of a desktop computing environment.
6
  NRC has determined that requirements for protecting safeguards data will be equivalent to those requirements for
  classified data at the Confidential level.


                                                        iii
                                                       Security Controls for Standalone PCs and Laptops



AGENCY COMMENTS

     The Office of the Inspector General (OIG) provided this report in draft to agency officials
     and discussed its content at an exit conference on August 25, 2005. We modified the
     report as we determined appropriate in response to our discussion. Agency officials
     generally agreed with the report’s findings and recommendations and opted not to include
     formal comments.




                                              iv
                                                    Security Controls for Standalone PCs and Laptops



ABBREVIATIONS AND ACRONYMS


Carson Associates   Richard S. Carson and Associates, Inc.
DFS                 Division of Facilities and Security
FISMA               Federal Information Security Management Act
FY                  Fiscal Year
ISSC                Infrastructure Services and Support Contract
IT                  Information Technology
LAN                 Local Area Network
MD                  Management Directive
NRC                 Nuclear Regulatory Commission
NSA                 National Security Agency
NSIR                Office of Nuclear Security and Incident Response
NTISSAM             National Telecommunication and Information Systems Security Advisory
                    Memorandum
OIG                 Office of the Inspector General
OIS                 Office of Information Services
PC                  Personal Computer
SANS                System Administration, Audit, Network, Security




                                           v
                        Security Controls for Standalone PCs and Laptops




[Page intentionally left blank]




              vi
                                                                               Security Controls for Standalone PCs and Laptops



TABLE OF CONTENTS


Executive Summary ....................................................................................................... i

1 Background .............................................................................................................. 1

2 Purpose .................................................................................................................... 1

3 Findings.................................................................................................................... 1
    3.1       Security Controls For Standalone PCs and Laptops Are Not Adequate .. 2
              3.1.1 Standalone PCs and Laptops Used to Process Safeguards and/or Classified
                    Information ....................................................................................................... 2
              3.1.2 Standalone PCs and Laptops Not Used to Process Safeguards and/or
                    Classified Information ...................................................................................... 3
    3.2       Standalone PCs and Laptops Are Not Monitored for Compliance with
              Executive Order 13103.................................................................................. 5
              3.2.1 Standalone PCs and Laptops Used to Process Safeguards and/or Classified
                    Information ....................................................................................................... 5
              3.2.2 Standalone PCs and Laptops Not Used to Process Safeguards and/or
                    Classified Information ...................................................................................... 5
    3.3       IT Coordinators’ Understanding of Disposal Practices for Standalone
              PCs and Laptops Is Inconsistent................................................................. 6
              3.3.1 Standalone PCs and Laptops Used to Process Safeguards and/or Classified
                    Information ....................................................................................................... 7
              3.3.2 Standalone PCs and Laptops Not Used to Process Safeguards and/or
                    Classified Information .................................................................................... 10
4 Consolidated List of Recommendations ............................................................. 11

5 OIG Response to Agency Comments .................................................................. 12


Appendices

    Appendix A: Scope and Methodology ............................................................... 13
    Appendix B: Sample Rules of Behavior............................................................. 15




                                                                  vii
                        Security Controls for Standalone PCs and Laptops




[Page intentionally left blank]




              viii
                                                                   Security Controls for Standalone PCs and Laptops



1          Background

On December 17, 2002, the President signed the E-Government Act of 2002, which included
FISMA.7 FISMA outlines the information security management requirements for agencies,
which include (1) an independent evaluation of an agency’s information security program and
practices and (2) an evaluation of the effectiveness of information security control techniques.
FISMA also requires an assessment of compliance with requirements and related information
security policies, procedures, standards, and guidelines.

As part of the FY 2005 FISMA independent evaluation of NRC’s automated information
security program, Carson Associates reviewed security controls for standalone PCs and laptops.

PCs and laptops used at NRC are either (1) connected to the NRC LAN or (2) used as standalone
systems. Some of the standalone PCs and laptops are used to process safeguards and/or
classified information. These are considered “listed systems.” PCs and laptops connected to the
NRC LAN are protected by the LAN’s security controls. The evaluation of security controls for
listed systems was reported in OIG-05-A-14, “Office of the Inspector General System Evaluation
of Listed Systems That Process Safeguards and/or Classified Information,” dated August 4,
2005.

There are approximately 4,100 PCs and laptops connected to the NRC LAN, and there are
approximately 117 standalone PCs and laptops that are used to process safeguards and/or
classified information. However, the number of standalone PCs and laptops that do not process
safeguards and/or classified information is unknown, as these standalone PCs and laptops are not
tracked in a central location. Findings in this report pertain primarily, but not exclusively, to
NRC’s standalone PCs and laptops that are not used to process safeguards and/or classified
information.

2          Purpose

The objective of this review was to evaluate the effectiveness of NRC security policies,
procedures, practices, and controls for standalone PCs and laptops.

3          Findings

Carson Associates evaluated the security policies, procedures, practices, and controls for
standalone PCs and laptops and found that:

      •    Security controls for standalone PCs and laptops that are not used to process safeguards
           and/or classified information are not adequate.




7
    The Federal Information Security Management Act of 2002 was enacted on December 17, 2002, as part of the E-
    Government Act of 2002 (Public Law 107-347), and replaces the Government Information Security Reform Act,
    which expired in November 2002.


                                                         1
                                                                      Security Controls for Standalone PCs and Laptops




       •   Standalone PCs and laptops that are not used to process safeguards and/or classified
           information are not monitored for compliance with Executive Order 13103, Computer
           Software Piracy.
       •   IT coordinators’ understanding of disposal practices for standalone PCs and laptops that
           are used to process safeguards and/or classified information is inconsistent.

3.1        Security Controls For Standalone PCs and Laptops Are Not Adequate

Security controls for PCs and laptops are typically provided by the network to which they are
connected. However, some NRC PCs and laptops are not connected to the NRC LAN and,
subsequently, fail to benefit from security controls provided by the LAN. MD and Handbook
12.5, NRC Automated Information Security Program, state that users shall take appropriate
precautions to protect the assets (hardware, software, data) provided for their use or to which
they have been granted access (e.g., workstations, microcomputers, LANs, and associated data).
MD and Handbook 12.5 also state that users should install virus-checking software on all mobile
or home computers used to access the NRC LAN and download updates at least weekly so that
the virus protection remains current.

MD and Handbook 13.1, Property Management, require users to sign NRC Form 119,
“Custodial Receipt for Sensitive Personal Property,” before receiving custody of sensitive
equipment.8

3.1.1 Standalone PCs and Laptops Used to Process Safeguards and/or Classified
      Information

The evaluation of security controls for listed systems was reported in OIG-05-A-14, “Office of
the Inspector General System Evaluation of Listed Systems That Process Safeguards and/or
Classified Information,” dated August 4, 2005. Each standalone PC or laptop used to process
safeguards and/or classified information requires a security plan that describes the security
controls in place for the PC or laptop. The security plan describes the required security controls,
including requirements for updating virus and operating system software. The evaluation found
that some security controls for standalone PCs and laptops that are used to process safeguards
and/or classified information are not being implemented as required because the agency has no
procedures in place for verifying that security controls described in a system’s security plan are
actually being implemented.




8
    Sensitive equipment is any accountable property that is desirable for personal use and can be easily removed from
    the premises.


                                                           2
                                                                        Security Controls for Standalone PCs and Laptops



3.1.2 Standalone PCs and Laptops Not Used to Process Safeguards and/or Classified
      Information

Carson Associates met with IT coordinators from 3 out of 30 NRC offices9 and found that
security controls for standalone PCs and laptops that are not used to process safeguards and/or
classified information are not adequate. The three IT coordinators interviewed for this report
stated that users are required to sign a Form 119, “Custodial Receipt for Sensitive Personal
Property,” when assigned a standalone PC or laptop. NRC Form 119 is used to establish
responsibility for the physical protection and safekeeping of sensitive items, but does not provide
users with guidance on implementing security controls on the PC or laptop and does not assign
the user responsibility for implementing security controls on the PC or laptop. None of the
offices contacted for this evaluation have procedures in place for verifying that all required
security controls are being implemented on standalone PCs and laptops that are not used to
process safeguards and/or classified information. The following are two security controls that
were found to be inadequate for standalone PCs and laptops that are not used to process
safeguards and/or classified information.

    •    Virus Updates. IT coordinators in the three offices contacted by Carson Associates
         described varying practices employed by their office to ensure virus software updates are
         performed on a routine basis. In one office, virus updates are not performed on
         standalone PCs and laptops, primarily because users view the requirement as
         cumbersome and difficult to achieve for PCs and laptops that are not connected to the
         NRC LAN. Users in another office are sometimes given verbal instructions on how to
         download and install the updates. A third office is currently developing rules of
         behavior10 that users must sign when given a laptop or PC. The rules of behavior include
         a requirement to update the virus definitions at the beginning of each usage session, but
         provide no guidance on how to perform the updates. The requirement to sign these rules
         of behavior has not been fully implemented, and users in this office are not currently
         provided guidance on the installation of virus updates.
    •    Software Updates. None of the three offices contacted by Carson Associates (1) notify
         users that they are responsible for performing software updates on standalone PCs or
         laptops or (2) provide any guidance on how to perform the updates. PCs and laptops can
         be configured to perform automatic operating system updates when new updates are
         available. Updates would occur only when the standalone PC or laptop is connected to
         the Internet. However, users are not informed that this feature is enabled or that they
         should periodically connect to the Internet to ensure installation of the latest updates.
         Furthermore, they are not notified they should not disable the automatic update feature or
9
  Carson Associates focused on meeting with IT coordinators for offices that have standalone PCs and laptops that
   are used to process safeguards and/or classified information. Of the 30 offices listed on the IT coordinators
   contact sheet, only 10, plus the 4 regions, have standalone PCs and laptops that meet this criteria. Carson
   Associates did not include any IT coordinators from the regions as we wanted to conduct face-to-face interviews.
   In addition to the three IT coordinators Carson Associates met with, we contacted IT coordinators for another five
   offices. Of the five, three did not return our phone call, and two referred us to another point of contact, but not in
   enough time to arrange an interview. We feel that by including the Office of Nuclear Material Safety and
   Safeguards and the Office of Nuclear Regulatory Research we covered offices with many of the standalone PCs
   and laptops.
10
    These draft rules of behavior can be found in Appendix B.


                                                            3
                                                             Security Controls for Standalone PCs and Laptops



           change the frequency of the automatic updates. As noted above, one office is currently
           developing rules of behavior that include a requirement to leave automatic updating
           turned on and configured to update every 24 hours. However, the requirement to sign
           these rules of behavior has not been fully implemented, and users in this office are not
           currently provided guidance on performing software updates.

Security controls for standalone PCs and laptops that are not used to process safeguards and/or
classified information are not adequate because users are not given sufficient guidance on
implementing security controls and the agency lacks a mechanism for assigning users
responsibility for implementing security controls on these PCs and laptops. In addition, the
agency lacks procedures for verifying that all required security controls are being implemented
on standalone PCs and laptops that are not used to process safeguards and/or classified
information.

Although standalone PCs and laptops are not connected to the NRC LAN, PCs and laptops that
are not used to process safeguards and/or classified information may be connected to the
Internet. This is particularly so for laptops used during travel. While these standalone PCs and
laptops do not process safeguards or classified information, they may be used to process
sensitive but unclassified information. Inadequate security controls, such as the lack of updated
virus definitions and operating system updates, could result in inadvertent release of sensitive
NRC information when a standalone PC or laptop that is not used to process safeguards and/or
classified information is connected to the Internet. The SANS Internet Storm Center (part of the
SANS Institute) continuously monitors the average time (survival time) it takes for an
unprotected PC (i.e., missing critical security patches and no firewall) running Microsoft
Windows to be compromised after being connected to the Internet.11 In June 2005, the average
survival time was only 25 minutes.

As noted above, one office is developing rules of behavior that serve as an agreement between
the employee and the agency to ensure security controls are implemented as required. Rules of
behavior such as these serve as one mechanism for conveying to users their responsibility for
implementing security controls for standalone PCs and laptops.

RECOMMENDATIONS

       The Office of the Inspector General recommends that the Executive Director for Operations:

       1. Provide users guidance for implementing security controls on standalone PCs and
          laptops.
       2. Develop and require users to sign a rules of behavior agreement accepting responsibility
          for implementing security controls on standalone PCs and laptops.
       3. Develop and implement procedures for verifying all required security controls are
          implemented on standalone PCs and laptops.



11
     http://isc.sans.org/survivalhistory.php


                                                    4
                                                                     Security Controls for Standalone PCs and Laptops



3.2        Standalone PCs and Laptops Are Not Monitored for Compliance with
           Executive Order 13103

Executive Order 13103, Computer Software Piracy, requires all executive agencies to ensure
compliance with applicable copyright laws.12 The agency monitors for compliance PCs and
laptops that are connected to the NRC network. MD and Handbook 12.5 state users shall not
install any computer program into the NRC computing environment if there is any question that
the computer program may not be properly licensed. MD and Handbook 12.5 also require users
to obtain approval and adhere to software copyright laws before installing software on NRC
systems, including standalone PCs and laptops. Users must comply with software copyright
license laws and policies that prohibit unauthorized use or copying of commercial software.

3.2.1 Standalone PCs and Laptops Used to Process Safeguards and/or Classified
      Information

As noted previously, the evaluation of security controls for listed systems was reported in OIG-
05-A-14. The security plan required for standalone PC or laptop used to process safeguards
and/or classified information states that the configuration of the laptop is controlled by the
information systems security officer (ISSO) for the standalone PC or laptop. The ISSO is
responsible for installing and performing updates to software. Users of the laptop are required to
sign an acknowledgment indicating their complete understanding of the plan.

3.2.2 Standalone PCs and Laptops Not Used to Process Safeguards and/or Classified
      Information

Carson Associates met with IT coordinators from 3 out of 30 NRC offices and found there are no
procedures in place for facilitating or monitoring compliance with Executive Order 13103 for
standalone PCs and laptops that do not process safeguards and/or classified information and are
not covered by the ISSC.

IT coordinators in two offices do not inform users not to install other software and have no
mechanism for monitoring compliance with Executive Order 13103. When issuing a standalone
PC or laptop, one office’s IT coordinator informs users not to install other software. This office
is developing rules of behavior that users must sign when given a laptop or PC. The rules
include a requirement not to load unapproved applications on the PC or laptop, and include a
statement that the PC or laptop can be called in for inspection at any time to check for
compliance with the rules of behavior. However, the requirement to sign these rules of behavior
has not been fully implemented.

Standalone PCs and laptops that are not used to process safeguards and/or classified information
are not monitored for compliance with Executive Order 13103 because they are not connected to
the NRC LAN and there is no mechanism in place for monitoring standalone PCs and laptops
that are not covered by the ISSC. As a result, the agency does not know its degree of compliance

12
     Copyright Law is contained in Title 17 of the United States Code. The Copyright Revision Act of 1976 (Public
     Law 94-553), effective January 1, 1978, was amended in 1980 to include computer software under the category of
     “literary works.”


                                                           5
                                                                         Security Controls for Standalone PCs and Laptops



with software licenses for standalone PCs and laptops, which makes NRC, its employees, and its
contractors vulnerable to the consequences of unauthorized software use. Such consequences
could include fines and even imprisonment.

RECOMMENDATIONS

       The Office of the Inspector General recommends that the Executive Director for Operations:

       4. Provide users guidance on compliance with Executive Order 13103, Computer Software
          Piracy, for standalone PCs and laptops.
       5. Develop and require users to sign a rules of behavior agreement acknowledging their
          compliance with Executive Order 13103, Computer Software Piracy, for standalone PCs
          and laptops.
       6. Develop and implement procedures for monitoring compliance with Executive Order
          13103, Computer Software Piracy, for standalone PCs and laptops.

3.3         IT Coordinators’ Understanding of Disposal Practices for Standalone PCs
            and Laptops Is Inconsistent

MD and Handbook 2.6, Information Technology Infrastructure, describe the procedures for IT
equipment removal requests. IT coordinators should make requests for removal of excess
desktop workstations and related hardware to the Office of Information Services (OIS) Customer
Support Center or through an Office of Administration Labor Services request.13 Equipment is
taken to a specific room on the 2nd floor of One White Flint where OIS staff sort, redistribute, or
arrange for disposal of the items. OIS staff either wipe14 hard drives with an overwrite process
or, if that is not possible, remove and destroy the hard drive. These procedures apply only to IT
equipment that is not used to process safeguards and/or classified information.

According to the National Telecommunication and Information Systems Security Advisory
Memorandum (NTISSAM), dated January 16, 1987, when an office automation system (i.e., a
PC or laptop) has outlived its usefulness and has become obsolete, or when it has become
damaged beyond repair, it must be disposed of properly. If the system has been used to process
or store classified or sensitive, but unclassified, information (i.e., safeguards), certain precautions
should be taken before the system can be disposed of through normal channels. These
precautions will help to prevent the compromise of any classified or sensitive, but unclassified,
information remaining in the system after it is beyond the control of the organization that once
used it. The NTISSAM states that any removable media that once contained classified or
sensitive but unclassified information that is not going to be reused should be either declassified
or destroyed.


13
      NRC Form 30, Request for Administrative Services, is used to submit a Labor Services request.
14
      “Wipe” is a term used to describe a process for removing sensitive data from a hard drive in such a way that there
     is assurance, proportional to the sensitivity of the data, that the data may not be reconstructed using normal system
     capabilities. Overwriting, which is a software process that replaces the data previously stored on magnetic storage
     media with a predetermined set of meaningless data, is a common method of “wiping” a hard drive.


                                                              6
                                                                      Security Controls for Standalone PCs and Laptops



The National Computer Security Center “A Guide to Understanding Data Remanence in
Automated Information Systems,” dated September 1991, defines declassification as a procedure
and an administrative action to remove the security classification of the subject media. The
procedural aspect of declassification is the actual purging15 of the media and removal of any
labels denoting classification, possibly replacing them with labels denoting that the storage
media is unclassified. The guide also states that purging must be used when media is released
from a secure facility to a non-cleared maintenance facility or similar non-secure environment.
The NSA approves methods for purging media.

MD and Handbook 12.2, NRC Classified Information Security Program, and MD and Handbook
12.6, NRC Sensitive Unclassified Security Program, describe procedures for handling classified
and safeguards information. MD and Handbooks 12.2 and 12.6 only discuss disposal of
safeguards and/or classified waste that can be destroyed by shredding. The MDs and Handbooks
do not describe disposal procedures for electronic media, such as hard drives (fixed and
removable) used to process classified and/or safeguards information, nor do they refer the reader
to the MDs and Handbooks in Volume 12, Security, that do describe the appropriate disposal
methods for hard drives that were used to process classified and/or safeguard information.

MD and Handbook 12.5, NRC Automated Information Security Program, also describe
procedures for processing safeguards and classified information. MD and Handbook 12.5 state
that special approaches should be used to delete safeguards and classified data from electronic
storage media. These approaches may include destruction of the physical media, obliteration of
the sensitive data through the use of an approved software product, or erasure of all data through
degaussing.16 Questions regarding the appropriate method for eliminating safeguards or
classified data from a storage medium should be referred to the Computer Security Staff.

3.3.1 Standalone PCs and Laptops Used to Process Safeguards and/or Classified
      Information

Carson Associates met with IT coordinators from three NRC offices and spoke with staff from
the Division of Facilities and Security (DFS) and the Office of Nuclear Security and Incident
Response (NSIR) regarding the disposal of removable hard drives used in standalone PCs and
laptops that are used to process safeguards and/or classified information. The three IT
coordinators interviewed have not actually disposed of any standalone PCs or laptops that are
used to process safeguards and/or classified information. However, they described the
procedures they would follow if the situation arises.

Carson Associates found that the disposal procedures described by the IT coordinators for
standalone PCs and laptops that are used to process safeguards and/or classified information
were inconsistent and not always in accordance with policy and guidance from NSA and NRC.


15
    Purging is the removal of sensitive data from an automated information system in such a way that there is
   assurance, proportional to the sensitivity of the data, that the data may not be reconstructed through open-ended
   laboratory techniques.
16
    Degaussing is a procedure that uses specialized devices that generate a magnetic field used to render any
   previously stored data on magnetic media unreadable.


                                                           7
                                                          Security Controls for Standalone PCs and Laptops




   •   One IT coordinator stated they would instruct the PC/laptop user to erase any sensitive
       information from the PC/laptop before returning it. The IT coordinator would then check
       the laptop for any sensitive files or folders, and then remove them before following the
       equipment removal procedures described in MD and Handbook 2.6. The procedures
       described by this IT coordinator are not in compliance with the guidance described
       above.
   •   Another IT coordinator stated they would use software to wipe the drive and then ask the
       OIS Computer Security Staff what to do with the PC/laptop. This procedure is in
       compliance with the guidance described above, but only if the IT coordinator has the
       proper clearance for handling the type of data stored on the PC or laptop.
   •   Another IT coordinator stated they would use an Office of Administration Labor Services
       request specifying the equipment be sent to DFS. MD and Handbook 12.5 have separate
       sections that discuss processing safeguards and/or classified information (sections 2.6.2
       and 2.6.3 respectively). Section 2.6.2 states that all media must be properly labeled,
       stored, sanitized, and disposed of as specified in MD 12.2, and Section 2.6.3 states that
       disks, diskettes, ribbons, and printouts must be disposed of in accordance with MD 12.6.
       However, as stated previously, MD and Handbooks 12.2 and 12.6 do not describe
       procedures for disposal of magnetic media, nor do they refer the reader to the MDs and
       Handbooks that do describe the appropriate disposal methods. Destruction of storage
       media is not discussed in MD and Handbook 12.5 until Section 2.6.12. A reader
       unfamiliar with MD and Handbook 12.5 who is interested in disposal procedures for
       electronic media that are used to process safeguards and/or classified information may
       not read all of MD and Handbook 12.5, but only read Sections 2.6.2 and 2.6.3. There are
       two places in Section 2.6.12 that discuss disposal of electronic media. The first statement
       in Section 2.6.12 pertaining to disposal of electronic media is that “removable magnetic
       storage media, such as diskettes and tapes that contain classified or sensitive information,
       should not be disposed of in regular waste containers. These media should be sent to
       DFS for retention or destruction.” It is unclear whether this statement applies to hard
       drives, as a hard drive is not something that is typically disposed of in a regular waste
       container. The second statement in Section 2.6.12 pertaining to disposal procedures is “if
       hard disk drives are removed from or replaced in a workstation, the hard drive that is
       removed should be unconditionally formatted before removal. If this is not possible, hard
       disks should be degaussed or sent to DFS for retention or destruction.” It is not clear
       whether this statement applies to all hard disk drives, or only those that do process
       safeguards and/or classified information. The term “unconditionally formatted” is also
       not defined.
   •   In comments provided to the OIG, the agency stated that DFS has an arrangement with
       the NSA for the disposal of hard drives and media. This arrangement was mentioned by
       more than one staff member contacted during this evaluation; however the agency has no
       documentation to support the existence of this arrangement.

Carson Associates also spoke with a staff member from NSIR to discuss that office’s disposal
procedures. NSIR requires that all equipment used to process classified information have their
hard drives removed before the equipment can be removed from NSIR. In the past, disposal of
the hard drives was coordinated with a member of the OIS Computer Security Staff. This


                                                8
                                                          Security Controls for Standalone PCs and Laptops



individual no longer works in this position; subsequently, NSIR is storing the hard drives in an
approved storage container until arrangements can be made for their disposal.

Disposal practices described by the IT coordinators for standalone PCs and laptops that are used
to process safeguards and/or classified information are inconsistent because the NRC MDs and
Handbooks that compose Volume 12, Security, do not clearly describe the disposal process and
who is responsible for administration of the disposal process. For example, MD and Handbooks
12.2 and 12.6 state that DFS “plans, develops, establishes, and administers policies, standards,
and procedures” for the NRC classified and sensitive unclassified information security programs.
However, MD and Handbook 12.1 state that NSIR is responsible for administering the
information security programs, and MD and Handbook 12.5 state that NSIR is responsible for
managing NRC information security programs that specifically deal with the classification,
declassification, and handling of classified, safeguards, and sensitive information. In comments
provided to the OIG, the agency stated that DFS is responsible for the development and
administration of policies, standards, and procedures for destruction of classified and sensitive
information; however this fact is not clearly stated in any of the MDs and Handbooks that
compose Volume 12.

Another example of unclear guidance is in the security plan templates required for standalone
PCs and laptops used to process safeguards and/or classified information. Both templates refer
the reader back to MD and Handbooks 12.2 and 12.6 for procedures on the destruction of
magnetic media containing safeguards and/or classified information. However, as stated
previously, MD and Handbooks 12.2 and 12.6 do not describe procedures for disposal of
magnetic media, nor do they refer the reader to the MDs and Handbooks that do describe the
appropriate disposal methods.

Without clearly defined procedures for the disposal of standalone PCs and laptops used to
process classified information, the agency may not be in compliance with policy and guidance
from NSA.

RECOMMENDATIONS

   The Office of the Inspector General recommends that the Executive Director for Operations:

   7. Develop detailed procedures in the appropriate Management Directives for the disposal
      of equipment used to process safeguards and/or classified information. These procedures
      should then be referenced in the appropriate chapters of the Volume 12 series of
      directives.
   8. Include the procedures for the disposal of equipment containing safeguards and/or
      classified information in the security plan templates.




                                                9
                                                        Security Controls for Standalone PCs and Laptops



3.3.2 Standalone PCs and Laptops Not Used to Process Safeguards and/or Classified
      Information

The three IT coordinators Carson Associates interviewed for this evaluation follow the disposal
process described MD and Handbook 2.6 for disposing standalone PCs and laptops not used to
process safeguards and/or classified information. Carson Associates also met with staff from
OIS responsible for handling IT equipment sent for disposal and verified that OIS maintains logs
of incoming and outgoing equipment.




                                               10
                                                         Security Controls for Standalone PCs and Laptops



4      Consolidated List of Recommendations

The Office of the Inspector General recommends that the Executive Director for Operations:

    1. Provide users guidance for implementing security controls on standalone PCs and
       laptops.
    2. Develop and require users to sign a rules of behavior agreement accepting responsibility
       for implementing security controls on standalone PCs and laptops.
    3. Develop and implement procedures for verifying all required security controls are
       implemented on standalone PCs and laptops.
    4. Provide users guidance on compliance with Executive Order 13103, Computer Software
       Piracy, for standalone PCs and laptops.
    5. Develop and require users to sign a rules of behavior agreement acknowledging their
       compliance with Executive Order 13103, Computer Software Piracy, for standalone PCs
       and laptops.
    6. Develop and implement procedures for monitoring compliance with Executive Order
       13103, Computer Software Piracy, for standalone PCs and laptops.
    7. Develop detailed procedures in the appropriate Management Directives for the disposal
       of equipment used to process safeguards and/or classified information. These procedures
       should then be referenced in the appropriate chapters of the Volume 12 series of
       directives.
    8. Include the procedures for the disposal of equipment containing safeguards and/or
       classified information in the security plan templates.




                                               11
                                                         Security Controls for Standalone PCs and Laptops



5      OIG Response to Agency Comments

OIG provided this report in draft to agency officials and discussed its content at an exit
conference on August 25, 2005. We modified the report as we determined appropriate in
response to our discussion. Agency officials generally agreed with the report’s findings and
recommendations and opted not to include formal comments.




                                               12
                                                                    Appendix A – Scope and Methodology
                                                         Security Controls for Standalone PCs and Laptops


SCOPE AND METHODOLOGY

To perform the evaluation of the NRC security policies, procedures, practices, and controls for
PCs and laptops, Carson Associates reviewed NRC policies on automated information systems
security, information technology infrastructure, and property management. Carson Associates
interviewed staff responsible for the ISSC, property management, and property disposal, and met
with IT coordinators from three NRC offices.

One area of particular concern addressed in this evaluation was disposal procedures for
standalone PCs and laptops that are used to process safeguards and/or classified information.
Carson Associates reviewed several NRC management directives in order to understand the
disposal procedures. Our review focused primarily on the Volume 12, Security, series of
management directives. Volume 12 comprises the following management directives and
handbooks:

   •   12.1, NRC Facility Security Program, April 14, 2004
   •   12.2, NRC Classified Information Security Program, April 27, 1999
   •   12.3, NRC Personnel Security Program, April 27, 2004
   •   12.4, NRC Telecommunications Systems Security Program, December 8, 1999
   •   12.5, NRC Automated Information Security Program, September 12, 2003
   •   12.6, NRC Sensitive Unclassified Information Security Program, December 20, 1999

Carson Associates also reviewed the following management directives and handbooks:

   •   2.6, Information Technology Infrastructure, March 7, 2005
   •   13.1, Property Management, January 14, 2002

The work was conducted from June 2005 to August 2005 in accordance with guidelines from the
National Institute of Standards and Technology, and best practices for evaluating security
controls. Jane Laroussi from Carson Associates conducted the work.




                                               13
                                   Appendix A – Scope and Methodology
                        Security Controls for Standalone PCs and Laptops




[Page intentionally left blank]




              14
                                                               Appendix B – Sample Rules of Behavior
                                                     Security Controls for Standalone PCs and Laptops




  Rules of Behavior for Government Furnished Laptops, PDAs, and Cell Phones
                  and Other Small, Portable Electronic Devices


1.0 Introduction

The United States Nuclear Regulatory Commission has purchased the item described
below for the use of the identified NRC employee below in accomplishing her or his
mission. The purpose of this “Rules of Behavior” agreement between the employee and
the agency is to help ensure that the item is used in a manner consistent with
information security and compliance NRC management directives and Federal
requirements (e.g., FISMA).

Some sections of this agreement may not apply because the device or item does not
have the listed capability. In that case, simply cross out that section and write “does not
apply” next to the section.


2.0 Name of the Employee to whom this agreement applies

2.1 Employee Name: _________________________________

2.2 Employee Room Number: __________________________

2.3 Employee Phone Number: _____ ____________________


3.0 Description of the Item:

3.1 Item Description: ______________________________________________
    (i.e., Dell Laptop, Palm PDA, etc.)

3.2 Item’s NRC Tag Number: _______________________________________

3.3 Item’s Location: _______________________________________________


                                       Page 1 of 3



                                            15
                                                               Appendix B – Sample Rules of Behavior
                                                     Security Controls for Standalone PCs and Laptops




4.0 Employee Behavior Requirements

4.1 For items with built-in camera components

In accordance with MD 12.1, Part II, (A)(iii), "Use of the camera component of the
equipment inside NRC buildings is prohibited without the prior approval by the Director,
DFS."

I agree not to use within the NRC Headquarters complex or any NRC regional office the
camera component of the item described in section 3.0 above, which was purchased
with NRC funds for official business use, without the prior approval of the Director,
Division of Facilities and Security. Further, I will assure that the camera component will
be securely stored and carefully accounted for and that all individuals who may have
access to or may use the equipment have also been advised of restrictions with respect
to its use.


4.2 For items with Blue Tooth

The RES/PMDA staff has delivered the item with Blue Tooth disabled. I agree to leave
the blue tooth capability of the device disabled.


4.3 For items with wireless capability (e.g., laptops or PDAs with 802.11a, b, or g
{or newer} capability.)

The RES/PMDA staff has delivered the item with wireless network access disabled. I
agree to leave the wireless capability of the device disabled.


4.4 Norton Antivirus

The RES/PMDA staff has delivered the item with Norton Antivirus installed and updated.
I agree to update the Norton Antivirus signatures at the beginning of each usage
session.


4.5 Windows Update

The RES/PMDA staff has delivered the item with automatic windows updating turned on
and with a frequency of update of once every 24 hours. I agree to leave the automatic
windows updating turned on and configured to update every 24 hours.


                                       Page 2 of 3



                                            16
                                                              Appendix B – Sample Rules of Behavior
                                                    Security Controls for Standalone PCs and Laptops




4.6 Use only of Approved Software Applications

The RES/PMDA staff has delivered this item with only approved software applications
on the device. I agree not to load unapproved or unlicensed applications on the device.
This includes games, American Online Software, and Instant Messaging Software.


5.0 Rules of Behavior Agreement and Signature

I, _________________________________, agree to abide by these rules of behavior. I
understand that at any time, RES/PMDA staff may call in the device/item covered by
this agreement and inspect it for compliance with this agreement. I agree to fully
cooperate in such inspections by making the device available to RES/PMDA staff at
NRC headquarters.



_____________________________________________                             _________
                  Signature                                                 Date




                                      Page 3 of 3



                                           17
                                  Appendix B – Sample Rules of Behavior
                        Security Controls for Standalone PCs and Laptops




[Page intentionally left blank]




              18
